OIG Investigative Reports, Conviction on Conspiracy, Embezzling and Failing to Refund Federal Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
October 22, 2003
Office of the United States Attorney
Western District of Louisiana
DONALD W. WASHINGTON
United States Attorney
United States Courthouse
800 Lafayette Street, Suite 2200
Lafayette, Louisiana  70501-7206
(337) 262-6618
Conviction on conspiracy, embezzling and failing to refund federal funds
Lafayette,  Louisiana.  A two and a half week trial by jury before United States District Judge Richard T. Haik ended last night with the jury returning guilty verdicts on all counts against  PATRICIA FRASIER BEDFORD, age 55, from Canton, North Carolina and MELISSA BEDFORD BLALOCK, age 34, from Candler, North Carolina, announced United States Attorney Donald W. Washington.  The defendants were each indicted in November 2001 on 1 count of conspiracy and 14 counts of embezzling and failing to refund federal funds.
PATRICIA BEDFORD owned and operated The Louisiana Training Center, Inc. (LTC), a privately owned for-profit school which had two locations in Sulphur, Louisiana.  The vocational-technical school offered cosmetology and health care courses.  BEDFORD's daughter, MELISSA BEDFORD BLALOCK, was the Financial Aid Director and owned ten percent of LTC.
The U.S. Department of Education (DOE) is the federal agency that administers the programs that provide financial aid to qualified students for their post-secondary education.  Title IV of the Higher Education Act of 1965 provided federal financial aid for students enrolled at eligible post-secondary schools.  BEDFORD, on behalf of LTC, entered into an agreement with the U.S. Secretary of Education on December 18, 1992 to participate in the Title IV programs.
All institutions participating in Title IV programs are required to have annual audits.  However, LTC never did a compliance audit during the entire time they were operating. LTC ultimately lost it eligibility to participate in Title IV programs in 1997 and closed the school that same year.  Prior to closing the school, BEDFORD and BLALOCK received financial aid on behalf of certain students that exceeded the students' cost of attendance, which included tuition, books and lab fees.  The law required that the defendants refund the excess balance to the student.  The defendants failed to always do this.  Further, several students receiving financial aid dropped out of the school before completing their course of study.  The defendants had already received full payment from the Department of Education for the students' education.  The defendants failed to refund the Department of Education, as required by law, any unused portion of the financial aid.
The defendants embezzled and failed to refund $54,393.00.
Sentencing will take place on a later date to be determined by the court.  The defendants could be sentenced up to five (5) years imprisonment on each count.
Sentencing in federal court is governed by the United States Sentencing Guidelines established by the United States Congress and the United States Sentencing Commission.  Parole has been abolished in the federal system.
This investigation was conducted by the Department of Education.  The case was prosecuted by Assistant United States Attorney Todd S. Clemons.
For further information, please contact United States Attorney Donald W. Washington at 337-262-6618 or First Assistant U.S. Attorney Bill Flanagan at 318-676-3600.
This and other press releases issued by the United States Attorney's Office for the Western District of Louisiana can be found at our website at www.usdoj.gov/usao/law.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov